   June 30, 2003




Logistics


Allegations Concerning the
Administration of Contracts for
Electronic Flight Instruments on
the C-130H Aircraft
(D-2003-115)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CAR                   Corrective Action Request
DCMA                  Defense Contract Management Agency
EFI                   Electronic Flight Instrument
ICS                   Interim Contractor Support
LMAS                  Lockheed Martin Aeronautics Systems
          Office of the Inspector General of the Department of Defense
Report No. D-2003-115                                                        June 30, 2003
   (Project No. D2003AB-0085)

         Allegations Concerning the Administration of Contracts for
            Electronic Flight Instruments on the C-130H Aircraft

                                 Executive Summary

Who Should Read This Report and Why? Managers of acquisition programs and
logistics planners should read this report to obtain information concerning the need to
coordinate contracting and logistics planning processes. In addition, contract specialists,
inspectors, and engineers at the Defense Contract Management Agency should read this
report to understand and use the Corrective Action Request process.
Background. This report is one in a series of reports that discusses allegations made to
the Defense Hotline concerning management oversight of the contractor’s performance
on the C-130, F-22, and C-5 aircraft. This audit is in response to an allegation referred to
the Defense Hotline concerning the Air Force C-130H aircraft. The C-130 transport
aircraft is responsible for airlifting troops and equipment into hostile areas. More than
350 C-130H variants were produced. Lockheed Martin Aeronautics Systems is the prime
contractor for the aircraft. Only 111 aircraft, including those that were produced from
1992 until 1996, have Electronic Flight Instruments. The Electronic Flight Instruments
have an active matrix liquid crystal display, which provides horizontal and vertical
navigation data to the pilot and copilot.

The allegation states that the Defense Contract Management Agency’s administration of
contracts for the Electronic Flight Instruments on the C-130H aircraft was inadequate.
Specifically, the complainant alleges that agency officials did not issue a Level III
Corrective Action Request to address problems with Lockheed Martin’s oversight of its
subcontractor and its inability to identify and resolve problems associated with the
Electronic Flight Instruments. According to the complainant, this action would have
formally documented the problem with the contractor’s quality processes and procedures,
recorded corrective steps planned, and placed the contractor on the contractor alert list.
Placement on the contractor list could have resulted in the loss of future contracts and
would have drawn attention to existing problems such as cost increases and schedule
delays. An inadequate supply of parts to repair the failed electronic flight instrument
components resulted in the grounding of C-130 aircraft.

Results. Contract administration and logistics planning for the Electronic Flight
Instruments on the C-130H was inadequate from 1994 to 2000, but program officials
identified a solution to the Electronic Flight Instrument problems in October 2000. We
substantiated that Defense Contract Management Agency contract administration for the
Electronic Flight Instruments on the C-130H was inadequate. We did not substantiate
that the draft Corrective Action Request delayed the resolution of the Electronic Flight
Instrument issue. We partially substantiated that inadequate oversight of the
subcontractor’s repair process led to poor Electronic Flight Instrument performance.
Lack of Defense Contract Management Agency and Program Office action allowed
Electronic Flight Instrument performance problems to continue. Although program
management officials identified and implemented a solution for the poor performance of
the Electronic Flight Instruments, lack of adequate logistics management and oversight of
the prime contractor’s operations led to more than 1,100 Electronic Flight Instrument
failures in a 34-month period ending October 2002, and grounding of 16 C-130H aircraft
through May 2000. Completing a purchasing system review, preparing a surveillance
plan focusing on subcontracting and the quality of subcontractor parts at Lockheed
Martin Aeronautical Systems, and issuing local procedures for using a draft Corrective
Action Request will improve the oversight of the contractor’s operations. Improvements
in logistics management should also include a requirement for Lockheed Martin
Aeronautical Systems to resolve the lack of supply availability in the Interim Contractor
Support contract and develop an acquisition strategy addressing logistics support for the
new Electronic Flight Instruments. (See the Finding section of the report for information
on the detailed recommendations.)

Management Comments. The Executive Director, Contract Management Operations,
Defense Contract Management Agency concurred with the recommendations stating that
the Defense Contract Management Agency’s contract management office at Lockheed
Martin Fort Worth has scheduled a review of the contractor purchasing system to
commence September 2003. In addition, he stated that the Defense Contract
Management Agency at Lockheed Martin Marietta is working on surveillance plans and
has prepared a draft procedure for using draft Corrective Action Requests. The Associate
Deputy Assistant Secretary for Contracting, Department of the Air Force provided
comments on the finding and concurred with the recommendations stating that a
management of assets clause would be included if a cost benefit analysis showed it to be
in the best interest of the Government. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     2

Finding
     Management of the Electronic Flight Instruments on the C-130H Aircraft    3

Appendixes
     A. Scope and Methodology                                                 13
         Prior Coverage                                                       13
     B. Summary of Allegations and Audit Results                              14
     C. Report Distribution                                                   16

Management Comments
     Department of Air Force                                                  17
     Defense Contract Management Agency                                       22
Background
    We performed this audit in response to an allegation to the Defense Hotline
    concerning the Defense Contract Management Agency’s (DCMA) oversight of
    the contractor’s performance on the C-130, F-22, and C-5 aircraft. This is one in
    a series of reports concerning the allegations. Specifically, this report addresses
    allegations related to the Electronic Flight Instruments (EFI) on the C-130H
    aircraft.

    C-130 Aircraft. The C-130 aircraft performs missions such as airlift support,
    Antarctic resupply, weather reconnaissance, fire fighting, and medical relief. The
    Air Force C-130H version is a transport vessel responsible for airlifting troops
    and equipment into hostile areas. The Air Mobility Command, the Air Force
    Special Operations Command, the Air Force Reserve Command, and the Air
    National Guard use the C-130H. More than 350 C-130H variants were produced.
    Lockheed Martin Aeronautics Systems (LMAS) in Marietta, Georgia, is the prime
    contractor for the C-130 aircraft.

    Electronic Flight Instruments. The EFIs provide horizontal and vertical
    navigation data to the pilot and copilot. Only 111 C-130H aircraft are fitted with
    either the 200-series EFI or the 550-series EFI. Each aircraft has four EFIs with
    glass components. The glass component was a commercial off the shelf
    acquisition that was no longer available after 1997 because of changes in
    technology and commercial application. If more than one EFI fails, the aircraft is
    not allowed to perform its mission due to safety of flight issues. Avionics Display
    Corporation, a subcontractor to LMAS, supplied the 200-series EFI. In December
    1999, due to continued financial problems, Avionics Display Corporation sold its
    Government product line including the EFIs to L-3 Communications. L-3
    Communications supplied the 550-series EFI.

    Defense Contract Management Agency Oversight and Guidance. DCMA is
    an independent support agency that is responsible for assessing contractors’
    manufacturing, production, and quality assurance processes. DCMA has an office
    at the LMAS facility in Marietta, Georgia. To assist officials in their oversight
    effort, DCMA issued Directive 1, otherwise known as the One Book, that
    implements policy for the performance of contract management functions. The
    One Book states that when contractual noncompliances are detected, corrective
    action notice must be issued to correct the deficiency. Noncompliance issues
    must be resolved at the lowest possible level, but if the contractor is
    nonresponsive, they must be escalated to a Corrective Action Request (CAR).
    The CAR is an indicator that elements of the contractor’s quality system are not
    in compliance with contract requirements. DCMA officials must maintain a
    record of CARs initiated, action taken, and followup needed to verify corrections
    made. There are four CAR levels. A Level III CAR identifies a serious
    contractual noncompliance to the contractor’s top management. A Level III
    CAR may be coupled with contractual remedies such as reductions of progress
    payments, cost disallowances, cure notices, show cause letters, and business
    management system disapprovals.




                                         1
    Allegations. One allegation stated that the DCMA contract administration for the
    EFI on the C-130H aircraft was inadequate. We substantiated this allegation.
    The complainant also alleged that DCMA did not issue a Level III CAR against
    LMAS to address problems with its oversight of the subcontractor and the
    inability of LMAS to identify and resolve problems associated with the EFI. The
    complainant believed that the DCMA purposely did not issue the Level III CAR
    to deflect attention from the contractor’s significant deficiencies. In addition, the
    complainant further alleged that the draft CAR delayed the resolution of the EFI
    issue. We did not substantiate this allegation. The complainant also alleged that
    LMAS did not exercise adequate oversight of the subcontractor’s repair process;
    that the failed EFI components could not be replaced because there was an
    inadequate supply of rear glass assemblies. We partially substantiated this
    allegation. See Appendix B for a more complete summary of the allegations and
    audit results.


Objectives
    The overall audit objective was to determine whether the Defense Contract
    Management Agency appropriately administered EFI contracts for the C-130H
    aircraft.




                                          2
            Management of the Electronic Flight
            Instruments on the C-130H Aircraft
            Lack of DCMA and Program Office action allowed EFI performance
            problems to continue until C-130H mission readiness was affected.
            Specifically, the lack of action included insufficient subcontractor
            oversight and limited logistics planning. Those conditions occurred
            because officials did not:

                •   Include a repair plus management of assets clause in the Interim
                    Contractor Support (ICS) contract requiring LMAS to identify and
                    resolve the lack of supply availability,
                •   Develop an acquisition strategy addressing logistics support for the
                    new 550-series EFIs that addresses sustainment and spare parts,

                •   Review the purchasing system and prepare a surveillance plan that
                    included subcontracting and the quality of subcontractor parts at
                    LMAS, and

                •   Issue local procedures for draft CARs.

            As a result, more than 1,100 EFI failures occurred and 16 C-130H aircraft
            were grounded. In addition, confusion concerning DCMA policy
            continues and future logistics problems from poor planning and oversight
            may occur.


Criteria
     Federal Acquisition Regulation. The Federal Acquisition Regulation
     Subpart 44.3, “Contractor Purchasing System Reviews,” requires the
     administrative contracting officer to initially conduct a contractor purchasing
     system review of the contractor’s pricing policies and contract performance.
     Thereafter, the administrative contracting officer must determine every 3 years if
     a followup review is needed. The administrative contracting officer must also
     maintain sufficient oversight to ensure that the contractor is effectively managing
     its purchasing program in accordance with the surveillance plan developed by the
     administrative contracting officer. The surveillance plan covers pertinent phases
     of a contractor’s purchasing system including performance. Without an approved
     purchasing system, the prime contractor must obtain written permission from the
     administrative contracting officer to subcontract for each prime contract awarded.

     The Interim Defense Acquisition Guidebook. The Interim Defense Acquisition
     Guidebook, October 30, 2002, states that an acquisition strategy shall summarize
     an analysis of the industrial base capability including program support. The
     analysis should identify DoD investments needed to create the manufacturing
     capabilities and should address product technology, obsolescence, and
     replacement of limited-life items. The Guidebook also states that DoD


                                          3
    Components must ensure that an adequate industrial capability and capacity exits
    to meet post-production operational needs before completing and terminating
    production.

    DCMA Directive 1. The DCMA Directive implements policy for the
    performance of contract management functions. The Directive states that
    performance management is the preferred management style because it is
    impossible to predefine the best way to perform a task when the circumstances
    under which the process will be executed vary. Therefore, all processes must
    have some flexibility, and the more the circumstances vary, the more flexibility
    must be built into the process.


EFI Performance, Subcontractor Oversight, and Logistics
Management
    Poor EFI performance, insufficient subcontractor oversight, and inadequate
    logistics management led to more than 1,100 EFI failures and the grounding of
    16 C-130H aircraft.

    Performance of the 200-series EFI. The EFIs began to fail shortly after fielding
    of the C-130H aircraft started in 1992. The EFIs displayed incorrect data, or
    showed a solid white line on the display screen (line out condition). No specific
    cause was identified for the failures until 1995. During the early stages of
    production, repairs averaged about twelve EFI units per month. The EFIs were
    repaired by the LMAS subcontractor and returned to service.

    In 1995, LMAS identified overheating of the rear glass assembly as a major cause
    of EFI failures and that, in 1997, this commercial glass component was no longer
    being produced. The Air Force viewed the risk as minimal because the rate of
    failure was only about 12 per month, and the Air Force had a contract with LMAS
    to repair electronics on the aircraft. However, the failures continued to increase,
    and a March 2000 briefing by L-3, the new subcontractor, showed that failures
    had increased to about 30 per month from March 1999 to January 2000. The
    failures caused 16 of the C-130H aircraft to be grounded and incapable of
    completing their mission from 1999 to 2000.

    EFI Failures and Grounding of C-130H Aircraft. We identified that 1,103
    200-series EFI failures occurred from January 2000 until October 2002. More
    than half of the EFIs failed multiple times. For example, one EFI failed 10 times,
    another failed 12 times, and a third failed 15 times. The table that follows shows
    the number of EFIs that experienced failure, the number of times that each unit
    failed, and the total number of failures.




                                         4
                     Electronic Flight Instrument Failures
                         January 2000 - October 2002


         Number of                        Times Failed               Total
         EFI Units                        for Each Unit             Failures
           201                               1                       201
           103                               2                       206
             65                              3                       195
             40                              4                       160
             26                              5                       130
             15                              6                         90
              6                              7                         42
              3                              8                         24
              2                              9                         18
              1                             10                         10
              1                             12                         12
              1                             15                         15

Total        464                                                    1,103

Logistics Management of the EFIs. In March 2000, the LMAS subcontractor,
L-3, briefed program management officials to ensure that they understood EFI
supportability issues for the C-130H fleet. The briefing also revealed that there
were about 480 EFIs in service, with a spares inventory of about 107 EFI units.
Because of increasing failures and a lack of adequate spares, the ability to sustain
C-130H aircraft was being affected.

Although program management officials stated that they had been aware of the
cause of the EFI failure and knew of the changing technology, they took no action
to acquire a sufficient number of spare EFIs. They also had taken no effective
actions to solve the overheating problem.

Subcontractor Oversight. Although officials at Warner Robins Air Logistics
Center repeatedly requested LMAS officials to address the EFI performance
problems, no formal action was taken and failures continued to increase and
aircraft began to be grounded. DCMA decided that formal action was needed and
issued a draft, unsigned Level III CAR on September 24, 2000, to LMAS to
expedite repair of the EFI units.

Draft Level III CAR. The draft CAR stated that the LMAS subcontractor, L-3,
was unable to meet the schedule and revised the delivery time. It also stated that
LMAS did not manage and control the subcontractor to ensure that the
requirements for repair and timely delivery were met; that LMAS did not provide
the Government with a comprehensive corrective action plan to correct
contractual deficiencies and develop alternative measures to seek new sources or
accomplish the repair themselves; that Air Force officials participated in
numerous meetings with LMAS to resolve the quality and delinquency issue
without success; and that many of the EFIs had to be repaired more than once.




                                      5
    The draft CAR requested LMAS to initiate immediate corrective action to control
    the performance and quality of supplies and services provided by L-3, and submit
    a comprehensive corrective action plan that addressed:

               •   a determination of cause,

               •   a proposed corrective action,

               •   a milestone chart identifying specific events to be accomplished,
                   and

               •   a delivery schedule to reconcile delinquent deliveries with contract
                   requirements.

    On September 26, 2000, DCMA officials issued a letter to LMAS stating that the
    draft Level III CAR was to be treated as if it were official. Management officials
    stated that DCMA would refrain from issuing an official Level III CAR if they
    received a corrective action plan by October 2, 2000, addressing the EFI issues.

    The former Director of the C-130 System Program Office informed us that the
    CAR was issued in draft to prevent termination of the contract. The System
    Program Office was not willing to terminate the contract because the EFI was
    only one of several subsystems that were supported by the ICS contract. The
    Deputy Director in September 2000 would have preferred to issue an “I am
    concerned” letter to LMAS top management to expedite repair and or replacement
    of the EFI. However, DCMA management, with concurrence from the C-130
    Program Manager, decided to issue a draft CAR rather than an official CAR
    because of complications with the contract since other subsystems were involved.
    Officials believed this was the best solution.


Contractor’s Response and EFI Solution
    LMAS Response. On October 2, 2000, LMAS responded to the draft CAR
    stating that it was pursuing options to increase the repairs of the EFIs, resolve the
    glass issue, and increase the average time between EFI failures. LMAS stated
    that replacement of the entire unit was more cost-effective than replacing just the
    glass, but that replacement required an extensive development effort and
    additional nonrecurring costs. LMAS also stated that it assigned personnel to L-3
    to expedite the repairs, continued to work on identifying a solution for EFI
    failures, reviewed repair procedures and quality assurance processes at L-3, and
    developed a plan to continue the repair of EFI units at L-3.

    LMAS responded by the date required, and appeared to take the problems more
    seriously when the draft CAR was issued, perhaps because the draft CAR had
    higher visibility within the LMAS structure. LMAS also changed its management
    structure. Both logistics and the marketing functions for the C-130 were under
    the same organization prior to the issuance of the CAR. After the draft CAR,
    LMAS separated those functions into different components.



                                          6
    EFI Solution. In November 2000, LMAS sent a letter to DCMA identifying that
    it had completed its engineering study and review of the EFI failures. The results
    showed that a cooling solution was needed for each EFI to prevent the
    overheating. On November 9, 2000, DCMA officials notified LMAS to proceed
    with the cooling solution for 400 200-series EFIs. In September 2001, the C-130
    System Program Office at Warner Robins Air Logistics Center negotiated a
    contract directly with L-3 for 132 new 550-series EFIs at $5.2 million with a
    2-year warranty at $288,816. The 2-year warranty was 6 percent of the cost of the
    new EFI unit and allowed the System Program Office sufficient time to provide
    funding for future maintenance of the new EFIs. According to the Air Force,
    they subsequently bought an additional 143 550-series EFIs. Although the 550-
    series EFI was a commercial off the shelf product, it was a form, fit, and function
    replacement for the failed 200-series EFI. The new model had been used
    successfully by the Navy on the S-3 aircraft.

    The Air Force did not procure a one-for-one replacement of the 200-series EFIs.
    After performing an analysis, the Air Force determined that it needed only 132 to
    install on the C-130H aircraft. The replaced 132 series 200 EFIs will be used as
    spares until the advent of the Avionics Modernization Program that is scheduled
    for 2007. This program will replace all of the EFIs because it will modernize the
    avionics of the C-130 fleet to meet the latest standards for performance and safety
    and to lower the total cost of ownership.

    We believe that these steps were positive and provided a realistic solution to the
    problems under the circumstances. However, the extensive difficulties in
    reaching the EFI solution showed that the relationship between the contractor and
    the Government was not effective in this particular matter.


Additional Improvements in Logistics Management
    Additional improvements are needed in logistics management and oversight of
    subcontractor operations. Specific issues that need to be addressed are supply
    availability on the ICS contract, logistics support for the new EFIs, purchase
    system and subcontractor oversight at LMAS, and procedures for issuing draft
    CARs.

    Supply Availability. In 1994, as part of logistics support, the System Program
    Office awarded an ICS contract to LMAS with a 5-year option for the repair of
    electronic components on the C-130H aircraft. The contract provided other
    services as part of the logistics support effort that included services, repair,
    administration, data, and technical support. The repair costs of the EFIs were
    reimbursed on a cost-plus-fixed-fee basis. A new contract was issued in March
    1999 and expired on April 30, 2003. The ICS contract was renewed in May 2003.

    Neither ICS contract included a management of assets clause for the identification
    and replacement of obsolete parts, identification of diminishing manufacturing
    resources, and the submission of analysis of high failure parts. This omission
    contributed to the delay in fixing and replacing the EFIs because the current
    contract did not require LMAS to identify new sources to replace obsolete parts


                                         7
such as the 200-series EFI, which became obsolete in 1997. System Program
Office officials renewed the current support contract for 1 year in May 2003, and
included a management of assets clause in the new contract. Based on guidance
in the Interim Defense Acquisition Guidebook, C-130H System Program Office
officials should ensure that the clause is included in contracts to require
contractors to identify new sources to replace obsolete parts.

Logistics Support. System Program Office officials at Warner Robins Air
Logistics Center stated that they were unable to locate an acquisition strategy
addressing logistics support for the C-130H aircraft. In addition, officials stated
that the source-of-repair assignment process was not complete for the C-130H
aircraft. The source-of-repair assignment process is the primary method used by
depot maintenance officials to assess sustainment strategies. The bridge from
production to full logistics support is the ICS contract. The C-130H ICS contract
has been in place for more than 10 years. Officials acknowledge that they are
behind in the source-of-repair assignment process because obtaining proprietary
data for subsystems is difficult. However, they are completing the source-of-
repair assignment process for implementation in 2004.

The lack of a written acquisition strategy for the C-130H aircraft contributed to
the lack of funding for repair and replacement of the EFI. The acquisition
strategy would have identified DoD investments needed to create the capabilities
and the capacity beyond post-production operational needs and would have
addressed product technology obsolescence and replacement of limited-life items.
In addition, it would have evaluated industry deficiencies on program design or
manufacturing capabilities and their effects. In accordance with guidance in the
Interim Defense Acquisition Guidebook, C-130H System Program Office
officials need to develop a written acquisition strategy that addresses logistics
issues for the new EFI.

Purchasing System Reviews and Oversight. The DCMA-Atlanta office was
responsible for performing purchasing system reviews at LMAS in Marietta,
Georgia. It performed the last review at LMAS in August 1998. During that
review, officials analyzed the policies and procedures on the LMAS subcontractor
rating system but did not analyze the system itself. Officials informed us that
they do not look for quality or obsolescence issues during a purchasing system
review.

In January 1999 and 2000, DCMA-Atlanta extended the purchasing system
approval because no apparent problems had occurred since the last review, and
scheduled another purchasing system review in August 2002. However, due to a
reorganization, DCMA-Dallas Fort Worth became cognizant over LMAS and has
not identified a date for the next purchasing system review. In addition, DCMA-
Atlanta officials do not have a surveillance plan for LMAS that covers pertinent
phases of a contractor’s purchasing system such as subcontractor oversight and
performance.

The purchasing system review should analyze technical and subcontractor
processes and procedures and include an analysis of deliveries. DCMA should
have reviewed the purchasing system in 1999 and in 2000 when significant
problems associated with late deliveries of the EFI's occurred. Higher-level


                                     8
    management at LMAS would have been alerted of the problems with the EFIs
    before the aircraft were grounded. However DCMA-Atlanta did not perform the
    review and continued approving the LMAS purchasing system.

    The Federal Acquisitions Regulation requires the administrative contracting
    officer to develop a surveillance plan that covers all phases of the contractor’s
    purchasing system, including subcontract award and performance, perform a
    review to ensure a sufficient level of oversight of the contractor’s purchasing
    system, and determine whether continued approval is warranted.

    Draft CAR Guidance. The DCMA office at LMAS issued an undated Standard
    Operating Procedure No. 99-04 Corrective Action Request Process. The
    procedure defined the purpose of a CAR, the process DCMA officials at LMAS
    must follow when initiating a CAR, and the responsibilities of DCMA officials
    for CARs. The standard operating procedure, however, did not discuss the
    issuance of a draft CAR. DCMA issued a draft Level III CAR in response to the
    EFI failures to ensure that the EFI issue was resolved. Officials stated that
    following the issuance of the draft CAR, the contractor took action to address the
    failures.

    The DCMA Directive 1 addresses the issuances of CARs when contractual
    noncompliances are detected and corrective action must be taken. The local
    Standard Operating Procedure No. 99-04 further defines the requirements for
    issuance of a CAR. Neither the DCMA Directive 1 nor Standard Operating
    Procedure No. 99-04 addresses the issuance of a draft CAR. Based on the type of
    flexible management approach recommended by Directive 1, the draft CAR
    would permit the flexibility needed to accomplish the objective. In this case, the
    draft CAR accomplished the objective and LMAS took action. DCMA
    management needs to determine whether actions such as draft CARs were
    envisioned within the Directive 1 policy for issuing CARs. If so, policy on
    issuing draft CARs needs to be clarified in local DCMA guidance.


Conclusion
    Program management officials for the C-130H aircraft did not adequately perform
    logistics management and include contract provisions that required LMAS to
    identify the lack of supply availability. They did not fund an early solution to the
    EFI overheating issue and did not acquire a sufficient supply of spares or identify
    other sources for the EFI once they knew of the changing technology and
    obsolescence issue on the glass. In addition, DCMA officials had not performed a
    purchasing system review since 1998, did not prepare a surveillance plan to
    ensure quality of LMAS subcontractor parts and timely deliveries, and did not
    issue clear guidance involving draft CARs. The EFI failures were the culmination
    of several deficiencies that led to catastrophic failure and the eventual grounding
    of the C-130H aircraft. Both DCMA and the C-130 System Program Office
    officials must now take action to strengthen controls over logistics support of the
    EFIs and management of the quality and timeliness of repairs and deliveries.




                                          9
Management Comments on the Finding and Audit Response

    The Associate Deputy Assistant Secretary for Contracting, Department of the Air
    Force provided comments on the finding in this report. Her comments identified
    the finding as three separate findings. While this report has only one finding, we
    will address her three concerns as findings. Additional comments are in
    Appendix B.

    Management Comments Finding 1. The Associate Deputy Assistant Secretary
    for Contracting, Department of the Air Force stated that even if LMAS was
    required to resolve supply availability, it may still have been a problem because
    the failures increased from 12 to 30 per month. While the audit focused on the
    220-series EFIs the report should have acknowledged that the new 550-series
    EFIs were never part of the problem but were part of the get well plan.

    Audit Response. Since failure of EFIs occurred soon after fielding and LMAS
    knew as early as 1995 that failures were caused by overheating, we believe supply
    availability should have been a concern before dramatic increase in failures
    occurred. In the EFI solution section of the report, we stated that the System
    Program Office negotiated a contract with L-3 for 132 new 550-series EFIs. They
    were a form, fit, and function replacement for the failed 220-series, which the
    Navy had used successfully. We concluded that the steps in evaluating the 550-
    series EFIs were positive and provided a realistic solution to the problem.
    Additionally, as discussed in the report, the supply availability was a contributing
    factor to the overall EFI performance problem, rather than the sole factor.

    Management Comments Finding 2. The Associate Deputy stated that the
    report’s assessment that the EFI problem was caused by inadequate logistics
    management is speculative and unsupported. She stated that the management
    team provided more than 100 spare EFIs and fully funded the repair contract
    based on observed failures of 12 per month. The unexpected increase to 30 per
    month was sudden and caused several supportability issues that could not have
    been anticipated or planned for once the problem was identified officials began
    monthly program management reviews and direct contact with L-3 to ensure that
    parts from non repairable assets were used when needed. A new cooling lid was
    developed by LMAS and supplied to L-3 for implementation, and officials
    procured the new 550-sereis EFIs to alleviate continued failures and parts
    obsolescence problems with the 220-series EFIs. She also said that the draft CAR
    was issued because they believed it was the best course of action. Further, she
    indicated that the report incorrectly stated that the Air Force needed only 132
    550-series EFIs, when the Government purchased 132 initially, and then
    purchased another 143 later.

    Audit Response. We agree that the Air Force could not anticipate the sudden
    increase in failures that occurred. However, when the EFIs were failing during
    production with a line out condition, a supportability analysis in the engineering
    process would have helped to determine the cause of the line out, the most cost-
    effective way to correct the problem, and the financial support needed to ensure
    the supportability of the system. When heat was identified as the cause of the line


                                        10
    out in 1995, a solution was not developed, which was attributed to a lack of
    funding. In 1997, when Air Force officials were notified by LMAS that the
    commercial glass component of the EFI was no longer being produced, they did
    not take action to ensure a lifetime buy of spare parts. Again, the Air Force
    attributed this to funding. Only when the EFI failures caused 16 aircraft to be
    grounded from 1999 to 2000 did the Air Force fully address logistics support and
    require LMAS to conduct research and development efforts for cooling the EFIs
    and solving the overheating problem. Clearly the facts showed that Air Force
    officials took little or no action to address the EFI problem early in production
    when they knew problems were causing line outs, or later when the cause of the
    problem was identified. The lack of action continued even after the supplier was
    no longer manufacturing the part. Significant measures were taken only when a
    catastrophic failure caused the grounding of 16 aircraft. We revised the report to
    reflect 275 550-series EFI's.
    Management Comments Finding 3. The Associate Deputy stated that the
    management of assets clause was not required and is not in all repair contracts
    because it may not be cost-effective. In addition, she stated that there was an
    acquisition strategy for the C-130H aircraft. Further, she stated that she does not
    concur with the report’s conclusion that management officials did not adequately
    plan logistics management because their management team made sound decisions
    based on the information and funding available at the time. She reiterated that
    until the units started to fail at a high rate, sufficient spares existed and adequate
    funding was available for the purchase of EFI repairs.

    Audit Response. We agree that the management of assets clause may not be
    appropriate for each contract and that an analysis must be conducted to determine
    if it is cost-effective. With respect to the acquisition strategy for the C-130H
    aircraft, program officials informed us that one did not exist and they were unable
    to provide the strategy. We maintain that contract administration and logistics
    planning for the EFI were not adequate. Program management officials did not
    take action in 1992 when the EFIs began to fail; they did not identify the cause
    and make appropriate changes to the design. In 1995, when the problem was
    identified as overheating, again management took no action. In1997, when
    officials were notified by LMAS that the commercial glass component of the EFI
    was no longer being produced, management did not decide to buy a lifetime
    supply of spare parts. Finally, only when the aircraft was grounded did
    management take effective action to remedy the situation and correct the EFI
    problem.

Recommendations and Management Comments
    1. We recommend that the Program Director, C-130 System Program
    Office:

           a. Include a repair plus a management of assets clause in future
    Interim Contractor Support Contracts.

           b. Prepare an acquisition strategy addressing logistics support for the
    550-series Electronic Flight Instruments that addresses sustainment and
    spare parts.


                                          11
       Management Comments. The Associate Deputy Assistant Secretary for
Contracting, Department of the Air Force concurred with both recommendations;
however, she stated that the Air Force would conduct a cost and benefit analysis
before adding a management of asset clause to the contract. If the analysis
concluded that the clause would be beneficial to the Government, the Air Force
would add it.

2. We recommend that the Commander, Defense Contract Management
Agency:

       a. Review the purchasing system at Lockheed Martin Aeronautics
Systems in Marietta, Georgia, and identify a sufficient level of oversight for
the contractor’s purchasing system.

       b. Prepare a written surveillance plan to include subcontracting and
the quality of subcontractor parts.

       c. Establish and issue local written guidance on the process used for
draft Corrective Action Requests at the Defense Contract Management
Agency, Marietta, Georgia.

Management Comments. The Executive Director, Contract Management
Operations, Defense Contract Management Agency concurred with the
recommendations. He stated that a Contractor Purchasing System Reviewhad not
been performed since August 1998 because the review schedule was affected by
the consolidation of several Lockheed Martin Aeronautics locations and the move
of the Lockheed Martin business offices to Forth Worth, Texas. However, the
responsible Defense Contract Management Agency office at Lockheed Martin,
Forth Worth, Texas, has scheduled a review for September 2003. The Director
also stated that the Defense Contract Management Agency is working on a
surveillance plan that will help monitor the contractor’s oversight of its
subcontractors and will cover both subcontracting and the quality of subcontract
parts. In addition, the Director stated that the Defense Contract Management
Agency office has prepared a draft procedure for using draft Corrective Action
Requests.




                                   12
Appendix A. Scope and Methodology
    We performed audit work to examine allegations made to the Defense Hotline
    that DCMA administration of EFI contracts on the C-130H aircraft was
    inadequate. We reviewed documents dated from 1998 through 2003. We
    reviewed the existing policy used to issue Corrective Action Requests. We also
    reviewed contract files for the C-130H and the EFI. We discussed the allegations
    with the complainants. We also interviewed current and former personnel from
    DCMA and the System Program Office of the C-130 Aircraft at Warner Robins
    Air Logistics Center.

    We performed this audit from October 2002 through May 2003 in accordance
    with generally accepted government auditing standards. We did not review the
    management control program because the audit scope was limited to the
    allegations of mismanagement of contracts.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the quality of logistics support high-risk area.


Prior Coverage
    No prior coverage has been conducted on the EFI during the last 5 years.




                                       13
Appendix B. Summary of Allegations and Audit
            Results
   Of the three allegations concerning the EFIs on the C-130H aircraft, we
   substantiated the first allegation, did not substantiate the second allegation, and
   partially substantiated the third allegation.

   Allegation 1: DCMA oversight of contract administration for the EFI on the
   C-130H aircraft was inadequate.

   Substantiated. DCMA oversight of contract administration was inadequate.
   Specifically, DCMA had not performed a purchasing system review since August
   1998 and had not formulated a written surveillance plan to monitor the
   contractor’s oversight of its subcontractor.

   Allegation 2. DCMA did not take remedial action against LMAS by issuing a
   Level III CAR to address and resolve the failed 220-series EFIs. Instead, DCMA
   issued a draft Level III CAR and kept LMAS off the contractor alert list. The
   complainants believed that this lack of formal action was a deliberate attempt to
   keep the contractor off the alert list. The allegation states that the formal CAR
   action would document the contractor’s quality processes and procedures, record
   corrective steps planned, and place the contractor on the contractor alert list.
   Placement on that list could have resulted in the loss of future contracts and
   drawn attention to existing problems at the facility such as cost increases and
   schedule delays.

   Unsubstantiated. DCMA used a flexible management approach that it believed
   would solve the problem with the least complications for the services that were
   being procured under the ICS contract. The action achieved improved
   performance.
   Allegation 3: LMAS did not exercise adequate oversight of the repair process at
   its subcontractor. The LMAS subcontractor’s poor performance on the ICS
   contract was leading to C-130H aircraft being grounded because of parts
   shortages. The inaction resulted in the eventual grounding of 16 C-130H aircraft
   because of an inadequate supply to replace the failed EFI components, and
   delayed the resolution of the EFI issue.

   Partially Substantiated. Although the contractor’s oversight of its subcontractor
   was inadequate, it was not the sole reason for poor EFI performance. The
   problem with the EFIs began in 1992 when the Air Force and the C-130 System
   Program Office did not fund the effort to identify the reason for the failure of the
   EFIs and, later, in 1997, when the System Program Office did not fund sufficient
   EFI spares to ensure a lifetime supply when the part became obsolete. If the
   problem and the solution had been addressed and if spare parts had been procured
   for the EFIs, the aircraft would not have been grounded and the problem could
   have been solved.



                                        14
Management Comments and Audit Response
    Management Comments. The Associate Deputy Assistant Secretary for
    Contracting, Department of the Air Force stated that in 1992 the program office
    did not have sufficient reason to fund an effort to identify the failures of the EFIs.
    Officials were experiencing only three failures a month and the failed assets were
    being repaired expeditiously. She stated that in 1997 there were only 12 failures
    per month not 30. In addition, there were 107 spares in the supply chain and the
    program management team determined that the number of failures and availability
    of spare parts were sufficient to meet the monthly demand. Accordingly, it was
    not necessary to make a lifetime buy.

    Audit Response. While the failures may have been only three per month
    initially, this failure rate, so soon after fielding, should have been a concern, and
    the 300-percent increase in failures in 1997 should have been alarming. By the
    time the failure rate reached 30, the program was at significant risk. The line out
    conditions initially experienced in 1992 pointed to a problem. The risk should
    have been reviewed early in the program, or at least when the cause was known,
    and the program office certainly should have taken action when notified of the
    need for the lifetime supply of spare parts. However, former program officials
    stated that the spare parts issue was not addressed due to funding constraints.




                                         15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Committee on Finance
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          16
Department of the Air Force Comments




                     17
18
19
20
21
Defense Contract Management Agency
Comments




                    22
23
24
25
26
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Mary Ugone
Bruce A. Burton
Thomas S. Bartoszek
Lisa E. Novis
Mary Hoover
Patrice Cousins
Paul Glenn
Jennifer Jezewski
Jacqueline Pugh
Jenshel D. Marshall
